<html>
<title> - EXAMINING RECOMMENDATIONS FOR IMPROVEMENTS TO IRAQ'S JUSTICE SYSTEM</title>
<body><pre>[Senate Hearing 110-5]
[From the U.S. Government Printing Office]


                                                          S. Hrg. 110-5
 
  EXAMINING RECOMMENDATIONS FOR IMPROVEMENTS TO IRAQ'S JUSTICE SYSTEM

=======================================================================


                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 31, 2007

                               __________

                           Serial No. J-110-7

                               __________

         Printed for the use of the Committee on the Judiciary



                    U.S. GOVERNMENT PRINTING OFFICE

33-819 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
      Michael O'Neill, Republican Chief Counsel and Staff Director



                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................    18
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    37
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     3

                               WITNESSES

Hamilton, Lee H., former Member of Congress, Director, The 
  Woodrow Wilson International Center for Scholars, and Co-Chair, 
  Iraq Study Group, Washington, D.C.; and Edwin Meese III, former 
  Attorney General, Ronald Reagan Chair in Public Policy, The 
  Heritage Foundation, and member, Iraq Study Group, Washington, 
  D.C............................................................     5

                          QUESTION AND ANSWER

Response of Lee H. Hamilton to a question submitted by Senator 
  Specter........................................................    28
(Note: Mr. Meese did not respond to this question.)

                       SUBMISSIONS FOR THE RECORD

Hamilton, Lee H., former Member of Congress, Director, The 
  Woodrow Wilson International Center for Scholars, and Co-Chair, 
  Iraq Study Group, Washington, D.C.; and Edwin Meese III, former 
  Attorney General, Ronald Reagan Chair in Public Policy, The 
  Heritage Foundation, and member, Iraq Study Group, Washington, 
  D.C., statement................................................    30
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  letter to Attorney General Gonzales (Dec. 11, 2006) and 
  response (Jan. 16, 2007).......................................    39
Special Inspector General for Iraq Reconstruction (SIGIR), Sector 
  Report (Jan. 30, 2007), Arlington, Virginia, excerpts..........    50
United States Institute of Peace, Robert M. Perito, Senior 
  Program Officer, Washington, D.C., statement...................    70

                 ADDITIONAL SUBMISSIONS FOR THE RECORD

Submissions for the record not printed due to voluminous nature, 
  previously printed by an agency of the Federal Government, or 
  other criteria determined by the Committee, list...............    75


 EXAMINING THE IRAQ STUDY GROUP'S RECOMMENDATIONS FOR IMPROVEMENTS TO 
               IRAQ'S POLICE AND CRIMINAL JUSTICE SYSTEMS

                              ----------                              


                      WEDNESDAY, JANUARY 31, 2007

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Feinstein, Durbin, Specter, 
Sessions, Graham, and Coburn.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning. The Committee today will 
continue to focus its attention on the enduring conflict in 
Iraq. Just yesterday, this Committee, chaired by Senator 
Feingold, had an important hearing on the powers of Congress to 
contribute to finding a better solution. Today, we concentrate 
on the challenges of training the Iraqi police and building a 
working criminal justice system. A competent police force and a 
functioning criminal justice system are crucial benchmarks in 
getting the Iraqi Government to stand on its own. You might say 
that of any country.
    I am very pleased that Congressman Hamilton and Attorney 
General Meese have come here, and I want to thank both of them 
for taking the time. They are both well known to the members of 
the Committee.
    I am concerned that the situation in Iraq continues to 
worsen on all fronts. In the last couple of days, the Special 
Inspector General for Iraq Reconstruction--the office that some 
tried to shut down and fortunately we kept open--has released 
reports indicating that the U.S. Government has squandered 
millions intended for police training programs because of 
``rampant problems overseeing contractors,'' as the Washington 
Post summarized in its story this morning. The article details 
an unauthorized Olympic--sized swimming pool, VIP trailers, 
shoddy construction, and unsanitary conditions at the Baghdad 
Police College. On television this morning, they were showing 
raw sewage leaking out through the light fixtures, the overhead 
light fixtures, as well as evidence of fraud, as millions--
actually, tens of millions of dollars are wasted. Not only does 
this undercut efforts in Iraq; it is doubly shameful because we 
are trying to restore places like New Orleans and the Gulf 
Coast here in this country. And that has been held up, and this 
money is being wasted in Iraq.
    It is an issue of overriding importance. In the most recent 
congressional elections, the American people spoke loudly and 
clearly. They wanted a new direction, and this week we are 
charting that new direction by considering better ways to serve 
our national interests.
    At its outset, the Iraq Study Group report states that the 
situation in Iraq is ``grave and deteriorating.'' I looked at 
the membership of the committee, the Iraq Study Group. I know 
every one of the people who served there. I have high regard 
for all of them. But this is not a monolithic, ideological 
group. It goes across the political spectrum. And I appreciate 
their honesty. This grim assessment should have been a wakeup 
call to the President and his advisers, and a clear message 
that it was time to not only listen to others but to act upon 
their sound advice. I am concerned that it appears that the 
White House has rejected much of the hard work and advice of 
the Iraq Study Group and instead decided to go it alone. During 
the last few days, the Vice President went further by rejecting 
contrary views as ``hogwash'' and seeking to trumpet the 
``enormous successes'' supposedly made in Iraq.
    We now know that the predictions by the Vice President and 
others of being welcomed as liberators in Iraq and an easy 
transition to a Western-style, secular, peaceful, pluralistic 
democracy were a very costly fantasy. As the Study Group report 
indicates, the best we can salvage may be the safe return of 
our soldiers and some measure of stability for the people of 
Iraq. The damage already done in terms of providing al Qaeda 
with new recruits and the alienation the extended occupation by 
American forces has caused among young people in the Middle 
East will be felt for decades, maybe even generations. 
Moreover, we have lost focus on what should have been our No. 1 
goal: bringing Osama bin Laden to justice. He is the man who, 
after all, hit us.
    As Senator Webb and many others I trust from both sides of 
the aisle have said, it is time for Congress to help guide the 
way. I hope the President will take good advice when it is 
offered--no matter the source. I urge him to work with Congress 
rather than defy it and to listen to the will of the American 
people in order to avoid a confrontation.
    I am grateful to the Iraq Study Group for its express 
recognition that ``Americans can and must enjoy the right of 
robust debate within a democracy.'' I might add, within the 
greatest democracy in the world. The scare tactics and attacks 
on the patriotism of those who question the President's plan 
are corrosive, and they are wrong. The work of the bipartisan 
Iraq Study Group is in the best tradition of America. The 
hearings this Committee held on the Iraqi refugee crisis and 
this week on congressional authority under our Constitution, as 
well as this hearing on the Iraq Study Group's recommendations 
for improvements to Iraq's police and criminal justice system, 
are part of that great traditions.
    I am concerned that after all the work--and I must say not 
only the work, but you made visits to a very, very dangerous 
part of this world--it seems to be ignored by the people who 
could make the decisions. In two major addresses to the Nation 
that President Bush has given recently -his escalation 
announcement of January 10th and his recent State of the Union 
address--he barely mentioned the Iraq Study Group's work. He 
said nothing about the critical importance of Iraq's civilian 
police. Of course, he also did not mention Louisiana and the 
Gulf Coast, perhaps the largest domestic disaster and 
displacement of people in our history.
    So this hearing is going to give us a chance to go further. 
I hope we can discuss better ways to contribute to peace and 
stability throughout the Iraqi neighborhoods. How can we help 
ensure better police forces? How can we better ensure that the 
principles of the Leahy law, which prohibit American financial 
assistance to those forces that engage in human rights 
violations, are honored rather than ignored?
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    There is much at stake. Again, I must thank our two 
witnesses for being here. With their own busy schedules, we 
very much appreciate that, and especially when talking about 
law enforcement matters, I am very happy that we have Senator 
Specter here, who has had even more experience in law 
enforcement than I did. Please go forward.

STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM THE STATE 
                        OF PENNSYLVANIA

    Senator Specter. I thank the distinguished Chairman for 
convening this hearing on a very important subject. In trying 
to deal with the multilayered problems in Iraq, the police 
force in Iraq and the judiciary in Iraq are very high on the 
list, along with reconstruction and economic development and 
oil revenues--all part of a multifaceted program, in addition 
to the military action, to try solve the problems in Iraq. And 
I am very pleased to see two very distinguished authorities 
here today--former Attorney General Edwin Meese and former 
Congressman Lee Hamilton--who have performed such extraordinary 
service after their formal connection to Government.
    The issue of what has happened with the 38 volumes on 
construction is the subject of a voluminous report. It has just 
become available in the last couple of days, and as the 
Chairman had referenced, this report contains repeated examples 
of wasteful spending--Olympic pools and not-ordered items and 
the squandering of an enormous amount of money. So that will 
receive attention as well.
    I think it is important to examine in detail what the Iraq 
Study Group has done, and too often, I think the executive 
branch gives only pro forma consideration really only going 
through the motions--you might call it lip service to what the 
Iraq Study Group has reported.
    It is my view that as a Nation we would be much better off 
if the executive branch was not so insular and undertaking a 
position that, as we discussed yesterday, the President 
articulates as he is the sole decider. But under the 
Constitution, separation of power and checks and balances, the 
Congress has standing as a co-equal branch of Government. And 
when a distinguished group like the Iraq Study Group comes into 
the picture, I think the executive branch would be well advised 
to do more than have a meeting and a news conference to give 
in-depth consideration to what is being proposed here.
    We have the military in Iraq essentially being called upon 
to perform a police function, not a military operation. It is 
trying to stop street violence, very much as Senator Leahy 
worked on in Burlington and I worked on as district attorney in 
Philadelphia. And the judicial system is indispensable if Iraq 
is going to have a stable government.
    I think it was very regrettable that that judicial system 
was not able to try Saddam Hussein at an earlier date. The 
President was in Pennsylvania extensively in 2004 when he was 
running for re-election, and I was running at the same time, 
and 1 day when we had a spare moment, I urged him to have the 
U.S. Government do what it could to bring Saddam to trial at an 
early date. We have a lot of criticism as to what the United 
States was doing there. And I said the obvious to the 
President; that if the world saw what a butcher he was with the 
Iraqi people and what he had done in the Iran-Iraq war with 
chemical warfare and how he had plundered the treasury, there 
would be a greater understanding as to the purpose of our 
action in Iraq.
    The President, in a perhaps playful mood, asked me if I 
would be willing to prosecute Saddam Hussein, and I immediately 
took him up on the offer. Things were a little slow in the 
Senate in 2004, and with the campaign, the thought ran through 
my mind about Justice Jackson leaving the Supreme Court and 
going to prosecute war criminals. And as soon as I accepted, 
the President withdrew the offer.
    But I contacted our liaison people in Baghdad to inquire 
about what were the prospects of an early trial, and it just 
could not be done. The Iraqi court had not been set up, and 
there had to be an appellate court. But there is nothing like a 
prompt prosecution--a prompt prosecution--not to have it tarry.
    In December of 2005, I visited Iraq and talked to the 
presiding judge in the Saddam Hussein trial, made a suggestion 
to him as to some of our practices when you had a defendant out 
of control. A defendant can be restrained in a variety of ways 
so that there is not an outburst. And he listened and said he 
had a little different view.
    But with the background of Attorney General Meese and the 
background of the Iraq Study Group generally, there is much of 
value in this report. So I am glad to see the Judiciary 
Committee focusing on it because it is an integral part of 
solving the problem in Iraq above and beyond the military 
action to see to it that they have a police force and to see to 
it that they have a functioning judicial system.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you.
    Senator Specter noted when he was Chairman we do have our 
rules. We are supposed to receive testimony by 10:00 a.m. the 
day before. Mr. Meese, your summary arrived in the afternoon. 
If nobody objects, I am not going to enforce that rule. You are 
not Government witnesses. You are private witnesses. You have 
worked hard to be here, and I appreciate that.
    Would you both please stand and raise your right hand? Do 
you solemnly swear that the testimony you give in this matter 
will be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Mr. Hamilton. I do.
    Mr. Meese. I do.
    Chairman Leahy. Please go ahead.

   STATEMENT OF LEE H. HAMILTON, FORMER MEMBER OF CONGRESS, 
DIRECTOR, THE WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS, 
  AND CO-CHAIR, IRAQ STUDY GROUP, WASHINGTON, D.C.; AND EDWIN 
MEESE III, FORMER U.S. ATTORNEY GENERAL, RONALD REAGAN CHAIR IN 
PUBLIC POLICY, THE HERITAGE FOUNDATION, AND MEMBER, IRAQ STUDY 
                    GROUP, WASHINGTON, D.C.

    Mr. Hamilton. Good morning, Mr. Chairman, Ranking Member 
Specter, Senator Specter, distinguished members of the 
Committee on Judiciary. It is an honor, of course, to appear 
before you. We thank you for the invitation and the opportunity 
to testify on the recommendations of the Iraq Study Group 
report, particularly those recommendations relating to police 
training and the criminal justice system.
    May I say it is a very great pleasure to appear with former 
Attorney General Ed Meese. He contributed in many, many ways to 
the work of the Iraq Study Group, but he was particularly 
helpful on the area that we are discussing today. And all of us 
on the group recognized his expertise in law enforcement and 
police matters.
    We think it is critically important to look at the totality 
of the U.S. effort in Iraq. All of the attention right now, of 
course, is focused on the military surge. Whether you think the 
surge is a good idea or not, the Iraq Study Group made clear 
that no policy in Iraq is going to succeed unless there is very 
comprehensive political, military, economic, and diplomatic 
effort.
    If you are going to stabilize Baghdad, you need to have a 
capable, trained professional police force in place. If you are 
going to stabilize Baghdad, you need a functioning criminal 
justice system. The same holds true, of course, for the rest of 
Iraq.
    As our testimony will make clear, there is a very long way 
to go to achieve these two goals. So we commend this Committee 
for shining a bright light on these questions. We hope that you 
will pursue questions of police training and the criminal 
justice system in Iraq at future hearings with administration 
officials. Your oversight is certainly needed.
    I also want to say a word of appreciation to Chairman Leahy 
for his support in the Appropriations Committee for the funding 
of the Iraq Study Group through the United States Institute of 
Peace. The work of the Study Group simply could not have been 
done without that support.
    The Study Group's recommendations are in the public record, 
and so we will not repeat them. If it is agreeable to the 
Chair, we would like to explain some of the thinking behind 
some of the recommendations.
    The recommendations for police training and the criminal 
justice system in Iraq follow from the assessment we made.
    There are, as you know, three major police forces in Iraq. 
The Iraqi Police Service, about 135,000 in strength, is 
responsible for local policing. The Iraqi National Police 
numbers roughly 25,000, and its officers have been trained in 
counterinsurgency operations, not police work. The Iraqi Border 
Police number roughly 28,000.
    The Iraqi Police Service has neither the training nor the 
legal authority to conduct criminal investigations. It does not 
have the firepower to take on organized crime, insurgents, or 
the militias. Iraqi police cannot control crime. They routinely 
engage in sectarian violence, including unnecessary detention, 
torture, and targeted execution of Sunni Arab civilians.
    Furthermore, the Iraqi National Police and the Iraqi Border 
Police are charged with tasks that are not traditional policing 
missions.
    The National Police operate within heavily armed commando 
units. They are engaged in counterinsurgency. These units have 
been particularly vulnerable to infiltration by sectarian 
militias.
    The Border Police also have a mission that is decidedly 
military in nature, particularly given the importance of 
sealing and securing Iraq's borders. They have to protect 
against arms and foreign fighters coming into Iraq. They have 
to work with coalition forces.
    Yet all of these forces--the Iraqi Police Service, the 
Iraqi National Police, and the Iraqi Border Police--are 
organized under the Ministry of the Interior. The ministry is 
confronted by corruption and militia infiltration and lacks 
control over the police in the provinces.
    There are ample reports of Iraqi police officers 
participating in training in order to obtain a weapon, uniform, 
and ammunition for use in sectarian violence. Some are on the 
payroll but do not show up for work. The report that you 
referred to, Mr. Chairman, of the Study Group, the Inspector 
General's report, says that one of the challenges relating to 
the maintenance of force levels is that leave and immature 
personnel management policies may account for up to 40 percent 
of police not being present for duty.
    The current Minister of the Interior has called for purging 
militia members and criminals from the police force. He has 
been in the post since May 2006. He has made a start at reform. 
Over 1,200 Interior Ministry personnel with criminal records 
have been identified and removed from the force. Just 
yesterday, we read reports that several leaders of the National 
Police were removed because they had ``turned a blind eye'' to 
Shiite militias. These are good steps, but everyone 
acknowledges that reform is a long road.
    The criminal justice system in Iraq is weak. Much has been 
done to establish an Iraqi judiciary, including a supreme 
court, and Iraq has some dedicated judges. Criminal 
investigations are conducted by magistrates. They are too few 
and inadequately trained to perform this function. Intimidation 
of the Iraqi judiciary has been ruthless.
    As one senior U.S. official said to us, ``We can protect 
judges, but not their families, their extended families, their 
friends.'' Many Iraqis feel that crime not only is unpunished, 
it is rewarded.
    In short, we believe the problems in the Iraqi police and 
criminal justice system are profound. Reforms are essential. 
They are urgently needed.
    Organizational reforms are necessary, and it is up to the 
Iraqis to carry them out.
    The Ministry of Interior has too large a span of control 
over too many diverse police and security activities. As 
presently organized, the ministry is not capable of effective 
and timely reform. If reconstituted to focus on the police 
mission, we believe there is a better chance that reform in the 
Ministry of Interior will take place and take hold.
    The Iraqi National Police and its commando-style units 
should be transferred to the Ministry of Defense. This move 
will place them under better and more rigorous Iraqi and U.S. 
supervision and will enable these units to better perform 
counterinsurgency missions.
    Similarly, the mission of the Iraqi Border Police bears 
little resemblance to ordinary policing. It, too, should be 
under the Ministry of Defense.
    The Ministry of the Interior needs to concentrate on the 
police mission. It needs to concentrate on professionalizing--
and gaining control of--the nationwide Iraqi Police Service. 
Before it can do so, it must purge its own ranks of bad 
elements. It needs legal authority, it needs training, it needs 
equipment, it needs to exert more authority over these local 
leaders.
    The ministry needs to expand the capability and reach of 
the current major crime unit, the Criminal Investigation 
Division, so that there will be a national capability for 
police investigations, similar to our FBI. The ministry also 
needs to regain control of the salaries of local police forces, 
as a powerful tool to press them for reform, and to prevent 
sectarian militias from controlling local police in Iraq's 
provinces.
    The ministry also must take on the various units of the 
Facilities Protection Service. Each ministry has its own 
security force. The Health, Agriculture, and Transportation 
ministries are controlled by al-Sadr. As described to us, this 
145,000-man force is ``incompetent, dysfunctional, or 
subversive.'' Several Iraqis simply referred to them as 
``militias.''
    All Facilities Protection Service personnel should be 
brought under the authority of a reformed Ministry of the 
Interior. They need to be vetted, retrained, and closely 
supervised. They must not serve as de facto militias for each 
Iraqi ministry.
    For the balance of the statement, I will turn to General 
Meese.
    Chairman Leahy. Thank you very much, Congressman Hamilton. 
I read the whole statement. We are going to go back to some of 
your conclusions in that in the questions.
    Attorney General Meese, again, thank you, sir, for being 
here, and please proceed.
    Mr. Meese. Thank you, Mr. Chairman, Ranking Member Senator 
Specter, and members of the Committee. Thank you for the 
opportunity to talk with you about our report. First let me say 
that it is true that many more of our recommendations have 
actually been accepted by the executive branch than is 
generally known or made known in the press. But the ones that 
we are talking about today are particularly important because 
the necessary concomitant to military success in Iraq is the 
ability to hold after the bad guys, as they say, are cleared 
from neighborhoods. It is necessary to hold and to preserve the 
security and stability of those neighborhoods on a long-term 
basis. And as has been pointed out by the Chairman, this is 
really a job for police.
    When I was in Iraq with the Chairman and others, one of the 
things that impressed me was the ability already--the work that 
our Department of Justice is doing over there in very limited 
numbers. There were people there from the Bureau of Prisons, 
from the Marshals Service, Assistant U.S. Attorneys, people who 
are expert in police work and so on. So there has been a start. 
But we believe that the principal responsibility for the 
training of police should be in the Department of Justice 
rather than in the military forces over there.
    Right now, of the 6,000 trainers for police, 5,000, it is 
my understanding, of them are military police, only 1,000 are 
civilian police. We think that while military police are very 
good in their field, the training of the civilian police force 
and the culture that needs to be developed, as Chairman 
Hamilton mentioned, is really a job for civilian police 
executives and police supervisors. And so our recommendations 
include the fact that the Department of Justice, which is 
already experienced in this field under the International 
Criminal Investigation, Training, and Assistance Program, where 
they have done this in other countries working on this subject, 
that they would be a good--the principal agency of the Federal 
Government to pursue this particular task. It would mean an 
enlargement of the kinds of things they have been doing 
overseas, but we think that they are the best agency to do that 
and that they should leave this work of organizational 
transformation in the Ministry of the Interior, which was 
mentioned by Mr. Hamilton.
    We also think that the current practice of embedding U.S. 
police trainers should be expanded and that the number of 
civilian training officers increased so that the teams can 
cover all levels of the Iraqi Police Service. The Police 
Service is that group of the police, as Mr. Hamilton mentioned, 
that does what is the principal police work. The officers are 
devolved down to the various provinces, and they are what you 
might call the street police of the Iraqi police regime.
    What we really need is someone to handle police training in 
the same manner as we expect General Petraeus to take over the 
military activities over there. There are some very excellent 
people available--a number of them come to mind--such as Tom 
Constantino, formerly the Superintendent of the State Police in 
New York; or Mark Croaker, who handled our policing activities 
in Bosnia. But someone like that who has the status ought to 
really be in charge of the police training and in the 
Department of Justice to do that kind of work rather than, as 
you suggest, private contractors for whom this is not their 
principal forte.
    In addition, we feel the FBI should expand the 
investigative and forensic training and technical assistance so 
that it would include the coverage of terrorism, so that 
forensic activity in regard to the making of these improvised 
explosive devices and things such as that could be traced back 
to their point of origin, so that the same kind of 
investigative activity, tracing networks of terrorist groups 
and the like that we would do with organized crime in this 
country, can be applied to the situation in Iraq.
    Likewise, the expansion of current programs that are there 
to do as was mentioned to be necessary, establishing courts, 
training judges, prosecutors, investigators, the whole legal 
side to be concomitant with the investigative and policing side 
of the situation.
    We also recommend that the CIA and the FBI together work to 
establish in Iraq a more effective counterterrorism center, 
intelligence center, and fusion center, just as we have done 
here in the United States, so that we can have intelligence-led 
responses to the terrorism attacks that are taking place there.
    And, finally, mention was made by Mr. Hamilton about the 
salaries. Right now, the Ministry of the Interior does not have 
control over the payment of police salaries or the funding of 
these police organizations. It is in the Ministry of Finance, 
and very little connection is made between the performance and 
competence of the police agencies and funding them and paying 
the salaries. And so it is very important that as a part of the 
reorganization and reinvigoration of the Ministry of the 
Interior that they have control of the funding, because as you 
know, the person--the Golden Rule: He who has the gold makes 
the rules. And just as in--I think England probably has one of 
the best patterns that might be followed where the national 
government pays a good portion of the police salaries so, 
therefore, they have the authority to enforce certain standards 
on the police, and that is what is necessary in Iraq, 
particularly, so that there is a professional responsibility 
and professional standards organization and inspection service 
that would function as the Inspector of Constabulary does in 
England. I think those models would be very good ones for the 
national police in Iraq.
    These are just a few ideas. As was mentioned, more is 
included in our report. But this has to be a fundamental part 
of our efforts in Iraq, along with the military effort, in 
order to maintain the safety, security, and stability that is 
necessary to then carry on the reconstruction work which is so 
important in that nation.
    Thank you.
    [The prepared statement of Messrs. Hamilton and Meese 
appears as a submission for the record.]
    Chairman Leahy. Thank you, Attorney General Meese.
    Both of you are basically saying you want the police 
departments to be police departments, and instead we have 
something very different there. In your testimony, you 
mentioned the need to followup with the administration, 
particularly the Department of Justice. So many of your 
recommendations involve them. I agree. After I reviewed your 
report, I sent a letter requesting information and views from 
the Attorney General back on December 11th. I received the 
courtesy of an acknowledgment from his staff, and in my letter, 
I extended an invitation for them to send a representative to 
this hearing, which they declined. I will make a copy of my 
letter and their response part of the record.
    I would also include in the record a very helpful statement 
from Robert Perito as well, who is, of course, a staff advisor, 
as you know, to your Study Group. That will be part of the 
record.
    I am wondering, do you get a sense--we spent about half a 
trillion dollars so far, both in the invasion and in the 
occupation of Iraq. How much of that has been devoted to 
developing an effective criminal justice system, effective 
police training, our of all that money we spent there? Do you 
have any sense how much has been spent and even how much is 
going to be required to be spent?
    Mr. Hamilton. Senator, I don't think we have a figure on 
that except it would be a very, very small part of that total 
amount. Very small.
    Chairman Leahy. Well, I wonder, because when we went into 
the war, Secretary Rumsfeld and Paul Wolfowitz told us that 
Iraqi oil revenues would, in effect, pay for the war.
    Now, we spent half a trillion dollars there. Are the Iraqis 
paying for any of this training or running of the--I would like 
to see somebody other than the U.S. pay for it. We are told we 
have to cut our COPS program in the United States because we 
need the money for Iraq. We do not have the money for police 
down on the Gulf Coast because of the costs. Are the Iraqis 
going to pay for any of this? Or are we, Uncle Sam and the 
American Taxpayer, going to pick up the tab?
    Mr. Hamilton. I think the largest part of the funding comes 
from us. One of the peculiarities of the Iraqi Government is 
that they in their various ministries have substantial amounts 
of money that they cannot spend or do not spend. They are just 
not capable organizationally or bureaucratically of getting the 
money out. So it is not always a problem of lack of funds. The 
funds are just tied up in knots in the bureaucracy of the Iraqi 
Government there.
    Mr. Meese. One of our recommendations, of course, is that 
Iraq pick up the funding, particularly of the police 
activities, including the training.
    One of the difficulties--you mentioned oil--has been to 
have a continuing source of the flow of the oil because of the 
terrorist activities against the utilities there, including the 
oil pipelines. It is kind of a Catch-22 situation because the--
    Chairman Leahy. It is there but you cannot get it?
    Mr. Meese. Well, you have the oil, but the terrorists 
disrupt the pipelines, and we need more police to catch the 
terrorists to protect the pipelines.
    Actually, protecting infrastructure is a very important 
part of both the military and the police activities there. But 
it certainly is our recommendation that Iraq pay for these.
    I would also suggest that good policing there and good 
handling of the funds within the Ministry of the Interior would 
go a long ways. As Mr. Hamilton mentioned, the funds are there. 
Right now, the ability to disburse the funds and account for 
funds is lacking, and that is part of the training that needs 
to be going into the Ministry of the Interior. Right now, many 
of the officials within the government are afraid to spend the 
funds because of the corruption that takes place and the fear 
that they will be accused of corruption. And so there has to be 
extensive work on the administrative activity and the 
administrative structure within the Ministry of the Interior--
as well as other ministries, for that matter--in order to have 
the proper handling of funding over there.
    Chairman Leahy. It sounds like you are doing kind of a 
Rubik's Cube as you try to do this. Probably based on my own 
law enforcement background, I have always felt that good law 
enforcement is just so essential for a civil society to 
operate. I really feel that is essential. And we know in this 
country, when we have good law enforcement, how well it has 
run, and we know what has happened when we have had bad law 
enforcement. We have had examples of each.
    Mr. Hamilton. Mr. Chairman--
    Chairman Leahy. And I worry here that--well, go ahead.
    Mr. Hamilton. Excuse me. I did not mean to interrupt.
    Chairman Leahy. That is all right.
    Mr. Hamilton. One of the problems throughout the Iraqi 
Government is capabilities. They just do not have the 
capability in ministry after ministry to perform. And, 
therefore, we have recommended that the U.S. aid to Iraq, 
economic aid, be concentrated in two areas: one, job creation, 
for obvious reasons; and, second, on trying to improve the 
capabilities of the Iraqi Government. You cannot help but be 
impressed how weak and how thin these ministries are in Iraq 
and what enormous responsibilities they have.
    Chairman Leahy. In fact, in that regard, I worry--you know, 
we are talking about embedding our troops with them. Well, if 
you have an unreliable Iraqi police force, if you have 
corruption, I wonder about asking our American men and women--
aren't we putting them in horrible danger if we ask them to 
embed with them? We have seen the abductions. We have seen 
torture. We have seen beheadings. We have seen people captured 
and used as pawns. Normally, you would think it would be the 
easiest thing in the world to put your folks in with the police 
force, that it would be the safest place. But for the life of 
me, I do not see where we guarantee the safety of Americans--
and this may go to Mr. Meese's Catch-22. But I do not see where 
we can embed these people, our Americans, and trust to their 
safety?
    Mr. Hamilton. There is not any doubt at all that when you 
embed American forces or American police trainers with Iraqi 
units, it is a high-risk business. Any task, I guess, in this 
country is risky, but it is very dangerous to embed.
    Now, that is one of the reasons we recommend why you have 
to have a residual force in Iraq, American combat forces, that 
could come to the aid of any American in danger. We believe 
that course of action will bring less casualties than our 
current strategy. But there is not any denying the risk 
involved when you embed. It is a dangerous business.
    Chairman Leahy. Do you agree with that, Mr. Meese? Mr. 
Meese. Yes, but I think we should recognize the fact that the 
military experience has shown that when American forces are 
present, the Iraqi forces, out of professionalism, actually 
behave much better and are much bolder in the actions they are 
willing to take. And I think this would be true of the police 
as well.
    One of the problems with the police is the culture of the 
police has to be built from the ground up. When Saddam Hussein 
was in power, the police were essentially groups of thugs that 
stayed in the police stations. They were very political in 
their orientation. When someone was accused of crime, it 
depended on the accuser. If the accuser was on the political 
good side, they went out and arrested the alleged culprit, 
brought him back to the police station, used what I suspect 
were unconventional methods to obtain a confession, and then 
threw him in jail.
    As a result, they do not have a very good reputation with 
the people in Iraq, so a part of the problem is to develop a 
culture of respect among the people, which means extensive 
police training in the kind of community policing activities, 
which they have started with the training but needs to be 
expanded.
    Chairman Leahy. Thank you.
    Senator Specter?
    Senator Specter. Thank you, Mr. Chairman. As you gentlemen 
outlined the problem, it is just gigantic, really overwhelming. 
When Congressman Hamilton talks about people volunteering to 
get a gun so that they can use it in sectarian violence, how do 
you check that out? When Attorney General Meese talks about 
professionals going through the organization of the Department 
of Justice, with the FBI and bringing in the CIA and the 
Marshals, it is extraordinarily difficult.
    When you read about the debates, Prime Minister Maliki is 
charged by one of the opposing members of their parliament with 
being partial to his group, and Maliki retorts, ``Well, I have 
a document showing you were involved in an assassination,'' it 
is pretty hard to know where you go for law and order.
    So the question comes to my mind. You have outlined an 
excellent blueprint based on our experience. How do you 
implement it? Is it possible to condition some of U.S. aid on 
hiring professionals, General Meese, as you suggest? How do you 
get a sense of responsibility in the officials who are 
directing the Iraqi Government to do the job?
    Mr. Meese. I think that Prime Minister Maliki has indicated 
numerous times his commitment to professionalism and to 
changing things in the country.
    Senator Specter. Has he been willing to appoint a 
professional like your group suggests? Mr. Meese. I think that 
in terms of the Ministry of
    the Interior, there is general agreement that he is trying 
very hard. One of the things I think we have to recognize is 
that for virtually all the ministries--and, for that matter, 
the Prime Minister--this is on-the-job training for them. When 
the Saddam government fell, he had so centralized the control 
of everything that when he and his partisan henchmen 
essentially were thrown out of office, there was a vacuum 
there, which is now attempting to be being filled by the 
government that is there. So I think it is a matter of 
training. It is a matter of support. But I believe--and I think 
Chairman Hamilton would agree with me--that what we saw 
appeared to be a genuine interest among those leaders, 
President Talabani and others, to do the right thing. It is a 
matter of giving them the support and the education, really, in 
order to do that.
    Senator Specter. Let me turn to the very high profile--
    Mr. Hamilton. Senator, may I just say, in this Inspector 
General's report they mention that--they quote Lieutenant 
General Dempsey, who has had responsibility for this. He 
estimates 20, 25 percent of the national police need to be 
weeded out, and they say that the local police are infiltrated 
by and possibly coordinated with sectarian militias.
    Senator Specter. How do you weed them out, Congressman 
Hamilton? How do you weed them out?
    Mr. Hamilton. I think the answer is--
    Senator Specter. You need a really good weeder.
    Mr. Hamilton. Well, you need a bushwhacker. You need a real 
vetting process.
    Today, for example, the Interior Ministry checks criminal 
records prior to 2003, but there is no check at all for militia 
membership. So there has to be a lot of vetting done with these 
people.
    How do you correct it? I think you have put your finger on 
one thing, and that is conditionality of aid. Now, this is one 
of the things we recommend in the report, that the Iraqi 
Government must make substantial progress--and that language, 
incidentally, comes from the El Salvador language of several 
years back.
    Senator Specter. May I interrupt you?
    Mr. Hamilton. Sure.
    Senator Specter. Because my time is almost up, and I want 
to cover one other issue, and that is, the most high-profile 
matter that the judiciary has handled, of course, is the trial 
of Saddam Hussein. And it would be hard to find a less 
professional execution--not that executions are very pleasant 
matters in any event--but it was extraordinarily botched, with 
taunting and sectarian ridicule at a time when there ought to 
be respect of some sort. And those high-profile trials are not 
over, and one way that the world is looking at their judicial 
system and the administration comes down to the execution.
    What steps can be taken to see to it that there is not a 
repetition of the disgraceful executions which have taken place 
so far?
    Mr. Meese. Well, I would suggest that--of course, one of 
the things when we talk about embedding our people, this would 
be at all levels. I think the more we can do to build up their 
professional standards inspection service, and when you talk 
about weeding out, this includes building an intelligence 
system that would utilize information that is available, 
getting information from people in the neighborhoods and so on 
about these individuals and building a comprehensive 
intelligence system so you can know who is there.
    In terms of the execution aspects of it, it is a matter of 
taking extra care to make sure you have trustworthy people 
there. It is my understanding that people infiltrated that 
execution that should never have even been on the scene, came 
in from the outside and participated in some of the things you 
have mentioned. So it is a matter of just vastly improving the 
controls that people at the top have over what is going on.
    Senator Specter. Congressman Hamilton, do you want to 
supplement that or go back to your prior point and finish it?
    Mr. Hamilton. No, no. That is all right. On the point that 
the General was making, we recommend that the Department of 
Justice has to take this responsibility. You have got to create 
an entire criminal justice system in this country. Today, 
ordinary crime is committed with impunity. There is no system 
of criminal justice in this country today.
    Now, we recognize the dimensions of this problem. It is 
huge. But we say that the programs led by the United States 
Department of Justice have to establish courts, they have to 
establish judges, prosecutors, magistrates, police, and create 
all of these institutions. And if you do not do it that way, I 
do not know how you get it done.
    Mr. Meese. I might say that we also can use the help of 
other nations. Norway, for example, has on a very small scale 
taken police executives from Iraq, taken them to Norway for 
several weeks of training by their police there in command 
positions. I think other countries could be very helpful along 
this line also so that it is not just the United States but 
really is an international effort to improve policing there. 
And I would certainly recommend that.
    Senator Specter. Thank you very much.
    Chairman Leahy. Thank you, Senator Specter.
    Senator Feinstein?
    Senator Feinstein. Thank you very much, Mr. Chairman. 
Listening to you gentlemen--and thank you for being here--I am 
trying to read between your lines or words. You know, what I 
see is a greatly deteriorating picture in Iraq, and what I see 
is a very real --that have never known a democracy, that have 
no infrastructure of that democracy that is necessary to 
provide rule of law and develop this very rapidly.
    In your report on the Iraqi police, I would like to quote: 
``There are ample reports of Iraqi police officers 
participating in training in order to obtain a weapon, uniform, 
and ammunition for use in sectarian violence. Some are on the 
payroll but don't show up for work. In the words of one senior 
American general, `2006 was supposed to be ``the year of the 
police'' but it hasn't materialized that way.'''
    Is there any evidence that 2007 can be ``the year of the 
police'' ?
    Mr. Hamilton. I see very little evidence thus far. So far 
as the United States is concerned, it is a question of 
priorities and making this one of our highest priorities in 
Iraq.
    Now, there are so many needs in that country that it is not 
easy to establish these priorities. But we are saying that 
there is a chance here to begin to develop at least a 
rudimentary criminal justice system, providing we put enough 
effort and resources and talent into it. But if you do not, and 
if we do not do it well, you simply will not achieve it. And 
you will not get stability in Baghdad.
    Senator Feinstein. Is there any evidence that that is 
happening?
    Mr. Hamilton. No guarantees here.
    Senator Feinstein. Is the answer no, there is no evidence 
that that is happening?
    Mr. Hamilton. No. I think there is some evidence that it is 
happening. I think we have learned. We began with the 
Department of State handling these criminal justice efforts in 
Iraq. That did not work. Then we turned it over to the 
Department of Defense. They had a lot more resources. But that 
is not the place for it either because the Department of 
Defense, with all of the good things they do, simply does not 
have the expertise for a criminal justice system.
    So this has to go to the Department of Justice. They are 
the only ones that can do it in our Government.
    Senator Feinstein. And what have they said to this 
statement in your report that they take over the training?
    Mr. Hamilton. I do not know that we have had a response 
from them on that, Senator Feinstein. I do not know.
    Senator Feinstein. So one would derive from that that they 
are not enthusiastic about going in and taking over the 
training. Is that not correct?
    Mr. Meese. I do not think we can say that. We just have not 
had any response since the Committee rendered its report. And I 
would say that the people in the Department of Justice that are 
there now are doing an excellent job. It is just that this 
program needs to be expanded.
    Also, we need to have many more professional police 
trainers than we have at the present time, and I think that 
that is something that I would certainly commend to the 
Committee, that with the Department of Justice having a greater 
role, it is necessary--and, again, this could be done by 
getting police executives from a number of countries, not just 
the United States.
    Senator Feinstein. How many trainers, Mr. Meese, are there 
now?
    Mr. Meese. Well, as I mentioned, there are approximately 
6,000 trainers, of which 1,000 are civilians and about 5,000 
are military police. And I think that it would not be unusual 
to say that the number that we need is probably around 10,000 
trainers, all of which, in my opinion, should be civilian 
police executives, retired police chiefs, retired police 
commanders from around the world. And I think that would be the 
kind of thing that we need.
    That is going to take time to ramp up, but it is something 
that really I think would be the best way in which to do this.
    Senator Feinstein. Is there any kind of a uniform training 
manual that is followed?
    Mr. Meese. Oh, yes, there is, and there are examples where 
this has been done elsewhere in the world. We have done it in 
various countries in Latin America, in much smaller amounts, 
but, nevertheless, there are--you know, in this country, over 
the course of time from the 1930's to the 1960's, we had a 
major change in the culture of police departments in this 
country. And I think some of those lessons can be learned in 
terms of applying them to Iraq, in terms of professionalizing 
the police force there.
    Mr. Hamilton. Senator, we say in the report that training 
has to be the primary mission of U.S. forces in Iraq. More 
important than anything else you are doing is training. And the 
quicker you do it, the earlier we are going to get out. And it 
is the only way we get out.
    Now, what we say with regard to the military forces is also 
true with regard to police. Training has to be the primary 
mission in order to correct the problems in the Iraqi criminal 
justice system.
    Senator Feinstein. Thank you very much. My time is up.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you.
    Senator Graham?
    Senator Graham. Thank you, Mr. Chairman.
    I think this is a very worthwhile hearing, and I appreciate 
you both. Your recommendations make a lot of sense to me, and 
we will try to support you the best we can from our level here 
in Congress. But trying to paint for the American people a 
little bit about what lies ahead, I think the biggest mistake 
we have all made--and I will put myself in this category--is 
not appreciating what we were taking on in Iraq and how hard it 
is to build a democracy out of the ashes of a dictatorship.
    The police force, as you described it, in the Saddam era 
had one purpose: to support the dictator and his friends, and 
everything else was secondary. The economy was built around a 
dictator and his friends, and we are trying to create something 
new and different.
    It seems to me that we have got years of training to go, 
not months. It seems to me that it is still in our national 
interest that Iraq become a stable, functioning democracy, thus 
an ally in the war on terror. Quite simply put, if we withdrew 
from Baghdad militarily in the next 6 months and we left the 
capital to be defended by the army and the police that exist, 
would it be fair to say that there is a great chance of a 
bloodletting in Baghdad?
    Mr. Hamilton. Oh, yes, indeed. We rejected the idea of a 
so-called quick or precipitous withdrawal for a variety of 
reasons: Iranian influence would expand, terrorists would have 
a sanctuary, energy resources would be jeopardized, our enemies 
would certainly be emboldened by all of that, we would lose a 
lot of standing and credibility, and many other reasons.
    Senator Graham. Yes, sir. And many other reasons. And I 
guess what I am trying to say, the Maliki government, as 
imperfect as it may be--which is obviously imperfect--is 8 
months old. You know, we declared our independence in 1776. Mr. 
Attorney General, it was not until 1789 we could ratify our 
Constitution.
    I guess what I am saying is that we need to put pressure on 
the Iraqi political leadership to do better. But never 
misunderstand the role that people find themselves in when they 
step forward for democracy. Our judges get beat up a lot in 
this country, sometimes physically but mostly rhetorically, by 
politicians. And I worry that we are going to drive good men 
and women away from wanting to be judges because their family -
they do not want to go through what you have to do sometimes to 
be a judge.
    Is it fair to say then in Iraq that if you raise your hand, 
I would like to be a judge to govern in the best--to bring 
about fair judgment for the future of my country, the powers 
against democracy try to kill your family?
    Mr. Meese. That is certainly a threat, and that is 
certainly a danger, and that is one of the things that was 
pointed out.
    One of the things that the Justice Department has begun is 
to have members of the Marshals Service over there to set up 
facilities and methods for the protection of judges, so that 
the point that you make, a very apt point, is being addressed, 
at least in a small way. And we recommend as part of the total 
setting up of the criminal justice system that that be 
expanded.
    Senator Graham. Do either one of you believe that a 
functioning democracy can be created in Iraq with this level of 
violence?
    Mr. Hamilton. No.
    Mr. Meese. Not with the current level of violence and, of 
course, that is the reason behind the joint military and police 
actions that we recommend.
    Senator Graham. And I share--
    Mr. Hamilton. May I interject a comment?
    Senator Graham. Yes, sir, please.
    Mr. Hamilton. You hit upon something I think that is hugely 
important. One of the recommendations--and this really goes 
beyond Iraq, but it goes to the question of nation building. We 
think the United States Government needs the ability to handle 
complex stability operations. Senator Graham. Yes. Mr. 
Hamilton. You do it pretty well on the military side. We do not 
do a very good job on the civilian side. And it is tough. I 
mean, you have got so many aspects to it--economic, criminal 
justice systems, and all the rest--and we have to develop in 
this Government--because we are going to be confronted with 
this in the years ahead. We are going to have to have the 
people here that can go into these countries that have no 
democracy and help them develop the institutions of democracy.
    Senator Graham. Well, said. And our enemies of democracy 
understand that as well as we do.
    Mr. Hamilton. They do indeed.
    Senator Graham. And it is fair to say that every 
institution of democracy in Iraq is under siege by foreign 
fighters and insurgents within the country. So, given that, I 
would like to just, if I could, in the next 20 seconds kind of 
view what I think is necessary.
    No. 1, the training part is absolutely critical. The IEDs 
that are the biggest threat to our troops, let's look at what 
makes that such a threat. With 40 percent unemployment in 
Baghdad, people are taking the money to be in the IED business 
because they do not have a job. And your suggestion that we 
create a better economy is a good one. How do you govern a city 
with 40 percent unemployment?
    Second, those who participate in acts to topple the 
government or to kill Americans seem to have no consequences, 
so the surge has to be along economic lines and the rule of 
law. And I am going to propose--and I don't know if this is a 
good idea or not, but it seems to me to be a good idea--that 
people involved in the IED business, people who are trying to 
topple the government, not committing domestic crime, should be 
treated as enemies of the state and tried by the Iraqi 
military. I think there is a role for the Iraqi military in the 
rule of law to have a tribunal that can deal with crimes 
against American forces and the state as a whole so that we get 
some swift, certain justice.
    It is my understanding that of all the institutions in 
Iraq, the military seems to have the best standing with the 
public at large. Is that correct?
    Mr. Meese. That is correct, Senator, and along these lines, 
this is one of the reasons why we have advocated an improvement 
of the intelligence system there so you can identify who these 
people are and trace back from the IEDs and other types of 
terrorist activities to develop the networks and that sort of 
thing so there can be an accurate identification.
    The intelligence-led policing that I talked about earlier 
is absolutely critical to achieving what you have talked about.
    Senator Graham. Thank you both for your service to our 
country.
    Chairman Leahy. Thank you. Incidentally, many of you have 
probably noticed that if you have a BlackBerry, if you have 
your microphone on and your BlackBerry is near it, you will get 
that noise. Iwould suggest that while you are asking questions, 
turn the BlackBerry off or put it away. And that could be any 
one of us who are doing it.
    Senator Durbin?
    Senator Durbin. It was me.
    [Laughter.]
    Chairman Leahy. No, I do not think it was. Your microphone 
was not on.

 STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Durbin. Thank you.
    Thanks for what you have done for our Nation. This Iraq 
Study Group has advanced the necessary debate on Iraq in a way 
that we were unable to on Capitol Hill. And the fact that we 
would have a good Democrat like Lee Hamilton sitting next to a 
good Republican like Ed Meese talking about this issue is 
meaningful. I thank you for doing this because I am sure there 
were other things you could have done with your time. But you 
have really done a great service to our Nation, and your candor 
and honesty really help us to try to come to some conclusions 
here.
    I visited Iraq for the second time in October, met with the 
provincial reconstruction team in Baghdad, and decided that I 
would focus on this issue--what is happening with police and 
civil justice in the Green Zone or in the city of Baghdad--and 
I have been accumulating information since. It confirms the 
conclusions of your Study Group and I think adds even more 
information of value.
    I would just say that any notion that we are going to surge 
to victory dies in the police stations of Baghdad. If you 
understand what really is going on in those police stations, 
you can understand how the best efforts of our military will 
not be translated into long-term stability without this civil 
justice system and without this police force.
    We all understand that the fight against terrorism involves 
not only the best intelligence and the best military, but the 
best police work that has to continue on a daily basis to give 
people confidence that they are living in a peaceful and stable 
setting. And the reports that I have from totally reliable 
local sources in Baghdad are very troubling, reports that tell 
me, as you have found, that when you go into a police station, 
you quickly determine whether it is a Shia or Sunni police 
station, and then you know whether they are going to enforce 
the laws against their group or the other group; that if a 
police station is bombed, it is basically closed for weeks, 
which means there is no police presence; that the police are 
afraid to launch investigations even into the murder of fellow 
police officers; that this one instance where a person went out 
to find a court that had not been visited in years, the person 
left the Green Zone, was in a car driven by an Iraqi soldier, 
and they could not find this courthouse. And he said to the 
soldier, ``Ask the policeman on the corner where the courthouse 
is.'' The soldier said, ``We are under strict orders not to 
speak to the police because that may be someone wearing a 
policeman's uniform who could lead us into an ambush.'' There 
is no level of trust and cooperation between the two.
    And it reaches beyond that. When it comes to the so--called 
investigative judges, no staff, no security, no pay, and so 
cases are not even followed up on. Fewer than 10 percent of all 
the crime is even investigated in Baghdad today.
    How can we step back from this present state of affairs and 
suggest that we are going to surge to victory or surge to 
success? It is unrealistic.
    Let me ask you in realistic terms about your 
recommendations here, because you did speak to the first 
quarter of the year 2008 and that there could be a change in 
troop levels, American troop levels, at that point, but you add 
some qualifiers and conditions. And it seems to me that you are 
suggesting we will still need American troops there for a 
variety of reasons, certainly to train.
    I want to say a word about training, if I can. I looked 
into what training meant for an Iraqi police officer. Here is 
what I found. An American who was sent in to train Iraqi police 
officers was told he had 200 people to train. He had 40 hours 
to train them. He would train them in a soccer stadium outside. 
He said, ``It is impossible. I cannot train 200 people to be a 
policeman in 40 hours.'' They said, ``Oh, did we say 40? We 
meant 20 hours. You have 20 hours.''
    He said, ``That is impossible. A group of 200 in an open 
soccer stadium? ''
    ``Oh, wait a minute. We forgot to tell you. The last 4 
hours are for the graduation ceremony.''
    Sixteen hours. So when we talk about 300,000 police backing 
up our surge of new American soldiers, we are talking about 
people who sat outside in a soccer stadium for 16 hours and 
wear a uniform to collect a paycheck and who may sell the 
uniform tomorrow to someone.
    Honestly, could we expect any civilian employees of the 
Department of Justice to go into Iraq in the near term, even in 
2008, under those circumstances? Could we expect them to risk 
their lives in terms of trying to build the system of justice 
without a massive U.S. military presence there to protect them?
    Mr. Meese. I think, Senator, that the idea is that this 
would be concomitant with the military effort. I think there is 
no question that there are dangers and there will be dangers, 
but I think that the military effort is absolutely necessary to 
provide the initial stability and security. The police function 
is to then come in and hold that situation. To do it without 
that military assistance or with the military preceding it, 
obviously it would not work.
    In terms of the training, I think what you point out 
illustrates the fact that we do need professionals who know how 
to train police, who know about the amount of time that is 
necessary, who can set up the curriculum, and that sort of 
thing. We have done it, for example, I mentioned in Bosnia 
earlier. We have done it in other places, and we need to do 
that there with people who know how to do it, who have done it 
before, and to set up the kind of a police training regimen 
that would be successful. But it cannot be done in isolation. 
It has got to be done as part of an overall strategy.
    Senator Durbin. But, Mr. Attorney General, the point I am 
trying to get to is--and I will stop as soon as I ask this 
question. I spoke to a man who was there on the ground trying 
to train police. He recommended that 6,000 international 
civilian police trainers and advisers were needed. It was 
quickly reduced to 1,500. In the course of the next year, there 
were 100 who were produced.
    My question to you: As a former Attorney General, how could 
we ask Department of Justice personnel to go into the danger of 
Iraq today without a massive U.S. military presence to protect 
them and expect them to show up, expect them to train these 
policemen and risk their lives every day? Is that a realistic 
recommendation?
    Mr. Meese. It would not be without the military being 
there, and, of course, this is presumed and this is based on 
the assumption that we would have the military force in there 
training the Iraqi forces, as is the current strategy, and that 
that would be a predicate to any kind of police training 
program.
    Also, I would not anticipate that we would have primarily 
people currently in the Department of Justice as the principal 
trainers. I would have them organizing the entire thing and 
heading the type of thing, but we need to recruit police 
executives from among retired and in some cases serving police 
officers now around the country, around other countries, who 
would be commissioned to do this job for perhaps 2 years, and 
that that would have to be a revolving thing.
    The job of training police is not something that is going 
to happen in 1 years, 2 years. Perhaps it is going to take as 
much as 5 years or more in order to have the kind of 
satisfactory police force. That has been our experience in 
other countries, and I am sure it would be in Iraq as well.
    Mr. Hamilton. Senator, the challenges--the facts you lay 
out--are just daunting. One of the things we ought to say is 
that there are an awful lot of civilian Americans in Baghdad 
who deserve just as much praise as the soldiers do.
    Senator Durbin. Yes, they do.
    Mr. Hamilton. They are doing very dangerous work and very 
important work, and there are many, many of them that are 
willing to take it on. Maybe not enough, but there are many of 
them.
    One of the things I like about your talk about the surge is 
you can make your own judgments about the military surge, but I 
think Senator Graham said you need a lot of surges in Iraq. If 
you just surge the military, you are not going to get it done. 
You have got to surge the civil law, the criminal justice 
system. You have got to surge the economic side of it as well.
    Senator Durbin. And diplomacy.
    Mr. Hamilton. But what is the alternative?
    Senator Durbin. Good question.
    Mr. Hamilton. I mean, you are where you are, and you cannot 
change the facts. You have just got to deal with the situation 
we have.
    Now, you can reach the conclusion, as a lot of people do, 
OK, too overwhelming, just leave and see what happens. We 
rejected that, and both the President and the Iraq Study Group 
say, look, you have got to deal with this government, as 
inadequate as it is, as weak as it is, with all the problems. 
If you have any chance of coming out of this with a reasonable 
protection of American interests in the region and in Baghdad, 
you have to work with what you have got and do the best you 
can. But the challenge is just absolutely daunting.
    Senator Durbin. Thank you, Mr. Chairman.
    Chairman Leahy. Thank you.
    Senator Coburn?
    Senator Coburn. Thank you, Mr. Chairman.
    First of all, let me personally thank each of you for your 
commitment on this. My background, I spent a number of months 
in Iraq after the first Gulf War as a medical missionary over 
there, and I have a pretty good insight to the Iraqi people. 
And it is surprising that most Americans do not really know the 
Iraqis. They are like us. They are just like us. They want to 
have children. They want a family. They want stability.
    I have a couple of questions, and then I will be finished. 
How do we as a Government--and I think this question may have 
been asked in an indirect way, but how does the administration 
pressure the Maliki government to clean up and transfer these 
areas within the Department of Interior? And I met with them 
when I was there last time, walked out into the streets outside 
of the Green Zone with them. That Interior Minister has a lot 
of guts. He puts himself on the line for assassination every 
day. How do we force them to make these changes that you are 
recommending in terms of the Border Patrol and the Iraqi 
National Police to move them to the Department of Defense, the 
Iraq Defense Department? How do we do that?
    Mr. Hamilton. We do not do it easily. We have been working 
on it for quite a while. And I do not think, on the part of the 
Iraqi Government, that they do not understand the need to do 
it. Their rhetoric is pretty good on all of these matters. You 
sit down and talk with the Minister of Interior, and you will 
come away thinking, well, he has got it right.
    The real question, of course, is performance, and here 
there is a difference. We believed in the Iraq Study Group that 
you have to look for all the points of leverage you can to make 
them perform, including providing assistance, of course, but we 
thought that assistance ought to be conditional on benchmarks 
being achieved, or at least substantial progress toward those 
benchmarks.
    We extend aid all around the world, and much of that aid is 
conditioned on performance. My own view is that is the way to 
do it, and I certainly think it is the way to do it with the 
Iraqi Government because I just do not think they are going to 
do it without every possible point of leverage being exercised 
against them.
    Senator Coburn. Is that one of the things that you think 
the administration has agreed to that has not been in the 
public realm of using the--
    Mr. Hamilton. No. I think the administration takes the view 
that they really do not want to make aid conditional. They have 
not thus far. And I think the President's view--I obviously do 
not want to try to speak for him, but he said to us on several 
occasions, ``My responsibility is to build confidence in the 
Maliki government.'' This is a delicate matter. It is a 
difficult matter to work out. We just think additional leverage 
is needed, and conditionality would be helpful.
    Senator Coburn. There is no question this is not going to 
happen in terms of cleaning out the insurgents and 
professionalizing this police force unless you do that 
transfer.
    Mr. Hamilton. That is correct.
    Senator Coburn. There is no question about that.
    Mr. Meese. I think that is true, and I think also it has to 
be understood, the administration also has to be careful in the 
way they do it, the way they put pressure on. It is important 
that this be done primarily on a quiet and confidential basis; 
otherwise, Prime Minister Maliki has said he does not want to 
look like a tool of the United States. So there is a certain 
subtlety and a certain care that has to be taken in how we 
express this and the channels that we use. But it is my 
understanding that the administration has made it pretty plain 
in conversations between the President and Maliki as to what we 
expect.
    Senator Coburn. There also, I think, was a part of your 
report--it has been a month or so since I read it--of markedly 
ramping up CERP funds for the military to have an impact. You 
know, I look at what happens with other interest groups around 
the world where a nation will influence an interest group by 
investing in them. And it seems to me that if we do not get 
more money on the ground that makes a difference in people's 
lives, no matter whether we control Baghdad or not, if we are 
not making a difference in people's lives that they can feel 
and sustain and touch, we are not--and there is no question in 
my mind in the oversight hearings that we have had that our 
foreign policy side of trying to make that difference is an 
absolute failure in Baghdad, and that the place for those 
moneys to go is through the generals on the ground rather than 
through USAID and some of these other things so that they can 
reward great behavior with economics.
    Any comments on that?
    Mr. Meese. The record shows that this has been the most 
successful. General Petraeus, when he was commander of the 
101st Airborne Division, had the whole northern area, the Mosul 
area, under control exactly by using these Commander's 
Emergency Relief funds in a very good way to put young Iraqis 
to work. And that is exactly what is necessary.
    Incidentally, in the total strategy, one of the plans is to 
divide these sectors of Baghdad, for example, into accountable 
areas where military commanders and police commanders would be 
held accountable among the Iraqi Government for particular 
areas, so that our military and the embedded police advisors 
would be able to hold these people accountable. And part of 
that would be the reconstruction activity that you are talking 
about.
    So I think the point that you have made is very well taken.
    Senator Coburn. Mr. Chairman, could I have the benefit of 
one additional question?
    You know, as Americans look all around, the one thing they 
are looking for in the Iraq situation is hope--hope for our 
soldiers to be able to come home, hope for the Iraqi people, to 
get out of this depressed malaise we find ourselves in as a 
Nation because we have been at war and things are not going 
well.
    Is there hope? Congressman Hamilton, is there hope?
    Mr. Hamilton. Well, I think General Petraeus said that the 
people of Baghdad are leading--I do not think he used the words 
``miserable lives,'' but he certainly indicated that. There are 
very few grounds for hope, but there are some, and you have to 
cling to that.
    Your point about the Iraqi Government trying to improve the 
governance--electricity, health care services, education, and 
protection--is just absolutely on the point, I believe.
    I do want to say--I think there was a comment made that the 
Commander is Emergency Response Program funds could be used for 
the police. They cannot. They are all for the military.
    Senator Coburn. Right.
    Mr. Meese. Senator, I think you have really indicated the 
hope yourself when you said that the Iraqi people are very much 
like us, that they want something better than what they have at 
the present time.
    It was expressed to me that stability and peace will come 
to Iraq when the average Iraqi loves their family and their 
community more than they hate their enemies. And, essentially, 
I think that is the case.
    Senator Coburn. Well, that is the majority of them. You 
know, what we hear is not the majority of the people there. I 
experienced that, and I communicate with people there every 
day. That is the majority viewpoint. It is just that is not 
what we see and that is not what we hear.
    Mr. Meese. And that is why the recommendations, the 
institutional recommendations, the cultural change in the 
government, the kinds of things we talk about, we feel there is 
an obligation of the United States to do those things that are 
necessary in order to provide the support and assistance to 
make these things come about.
    Senator Coburn. Thank you very much.
    Mr. Chairman, thank you for--
    Chairman Leahy. Of course. I thought you asked a very--what 
I would call a bottom-line question. But, you know, I could not 
help but think as I listened to that, I represent the small 
State of Vermont. I was born there. I love it. It is probably, 
or actually, the statistics show, the safest State in the 
country. And you are talking about the hopes of people.
    During the summer, there is a farmers market that is about 
3 or 4 miles from where I live. My wife and I go there every 
Saturday morning. It is almost like a town meeting. You see 
everybody you know. You talk about everything. You talk about 
your kids, their kids, and all that.
    The looks of the market are not dissimilar to the looks of 
some of the markets we have seen in Baghdad where the bodies 
are strewn all about, where people have been blown up, doing 
the same thing my wife and I do, just going to get some 
groceries, get some fresh vegetables, get the things that 
sustain life.
    We do it as a commonplace thing. I mean, the last thing I 
worry--I mean, I might worry that I might be late to something 
I was supposed to go to, but I never worry about my safety or 
life there. These are the things we worry about. That is why we 
talk about this law enforcement.
    That is why I was so furious as I read these reports about 
the war profiteering. These people are putting their lives on 
the line. If you look at the buildings that have been 
constructed with hundreds of millions of dollars of American 
taxpayers' money, and now they are talking about needing 
millions more, just tear them down.
    These people who are doing this are materially overvaluing 
these goods and services with a specific intent to defraud the 
United States. We are spending fortunes there. Earlier this 
month, the President says he wants another $1.5 billion more 
for this kind of work. The Special Inspector General for Iraq 
Reconstruction says millions of U.S. taxpayers' dollars remain 
just totally unaccounted for.
    Now, I have a bill that I introduced on the first day of 
the new session, a war-profiteering bill. It would give us 
extraterritorial jurisdiction for these crimes so that Federal 
prosecutors in the United States can criminally prosecute 
individuals who are engaging in war profiteering, who are 
getting ill-gotten proceeds, can go after corrupt contractors.
    Does this legislation make sense? I mean, this is more than 
just fining. I should tell you it is more than just fining 
them, because you have some of these companies that they have 
$100 million worth of fraud, so you fine them $5 million, it is 
a cost of doing business. My experience as a prosecutor is if 
they thought they were going to go in the slammer, the bar is 
going to close, they are going to say, wait a minute, this goes 
beyond a cost of doing business, I might be spending 5 or 6 
years with a roommate I do not particularly want to have.
    So tell me, is this something worthwhile?
    Mr. Meese. Well, I think, Senator--I have not seen the 
legislation, of course, but I think that if there are 
fraudulent activities in which people corruptly and dishonestly 
misuse funds, and there is the criminal element of intentional 
crimes, then I think that this would be an appropriate 
addition.
    At the same time, I think there have to be civil remedies 
as well for those people who, not with criminal intent but just 
through incompetence or a lack of proper attention to 
accountability for the funds, I think that there ought to be 
civil penalties as well.
    Chairman Leahy. Sure. I am not suggesting either/or, but 
when there is very specific--when it is done with a clear 
intent--and we are all lawyers; we understand what is meant by 
that--a clear intent to defraud and you can prove that, I think 
somebody ought to go to jail.
    Mr. Meese. I agree.
    Chairman Leahy. Because our people are going there and 
putting their lives on the line all the time. Yes, sir?
    Mr. Hamilton. Well, it goes beyond the Iraq Study Group 
report. We did not get into that. But I just would say 
personally that when you read headlines in the paper and the 
reports like you had today, ``Reports Fault Oversight of Iraq 
Police Program'' that was in the Post, when you have this 
incompetence, when you have unauthorized work, when you have 
shoddy facilities, when you have money that is squandered, 
there are very, very few things that hurt our effort more in 
trying to succeed in Iraq than that kind of performance because 
it just turns all people off to know that there are people 
performing shoddy work, getting huge Government contracts. 
There are very few things that undercut our efforts in Iraq any 
more than that.
    Chairman Leahy. I come from a little town of about 1,200 
people. I live on a dirt road. And on town meeting day, we talk 
about an extra $50,000 or $60,000 for needed repairs in the 
school, and it will be debated, and can we spend it. And these 
same people read that $1 million got waste, $2 million got 
wasted, $3 million. The complaints I hear come from everybody 
across the political spectrum, as I am sure you can imagine.
    Now, I know you are looking in a forward way on these, but 
it kind of helps to know how we got there. On the police 
training, I know when former New York City Police Commissioner 
Bernard Kerik was sent to lead the police training effort in 
2003, he did this with 10 days' notice, no international police 
training experience, even though he had obviously run a large 
department here in the United States. It has been reported that 
he prepared for this by watching documentaries on Saddam 
Hussein.
    Is there anything that could have been done to put us in a 
better position today? We all agree that we need better police 
training. We all agree that we need a police force that works. 
What is the biggest mistake we made in the past?
    Mr. Meese. Well, I think, Senator, one of the things that 
we did not do, as you point out, is look back because, for one 
thing, it is hard, without spending our energies on really 
looking into all of that, to give you an accurate answer. But 
in looking forward and at the same time answering your 
question, I think we do need, as I mentioned earlier, we need 
someone to head this up who has the international respect, and 
that is why I mentioned a couple of people just as examples.
    Chairman Leahy. Sure.
    Mr. Meese. These would be people who have already done the 
job. Tom Constantino, for example, headed up the inspection of 
the new Irish police service in Ireland. Mark Croaker headed 
our effort in Bosnia very successfully. Both had been 
successful as police executives in this country and then went 
elsewhere. I could name another half dozen if you have the 
time.
    Chairman Leahy. I mean, I look at some of these things that 
I think have to be mistakes. In Jordan, we were training. We 
had a good police facility in Jordan. We had 1,800 police per 
month graduate. The importance of that, the police officers 
could go to training and not be afraid they are going to have 
what we have seen happen where the bus with the recruits is 
stopped, they are all taken out and just killed on the spot. 
The family watches that on TV that evening in the news. That 
facility may not have been perfect, may not have been as 
comprehensive as we wanted, but it was at least safe. And we 
just closed it down and moved it back to Iraq. Was that a 
mistake?
    Mr. Meese. I don't know the reasons why we closed it down 
in Jordan and moved it back to Iraq, but I think that the 
facility that they have in Iraq, while that is not something 
that we have looked into specifically, I assume that the safety 
of that particular facility has been provided, either by 
military or otherwise, because at least I have not heard of any 
major incidents happening in regard to the training facilities 
there.
    Mr. Hamilton. Senator, I think an absolutely core problem 
in Iraq today is sectarian violence. You have got some foreign 
fighters that come into the country. You have got an insurgency 
that can be quite hostile and fierce. But the real threat that 
we confront in Iraq is sectarian violence. And, therefore, all 
of these things we are talking about here today with regard to 
police and criminal justice systems and the rest are only going 
to be dealt with if you are successful when you are attacking 
national reconciliation. You must have national reconciliation 
in Iraq, or you will not solve the problem of a criminal 
justice system or security or economic development or anything 
else. Sectarian violence is the core problem in that country 
today. National reconciliation is the answer to it.
    Chairman Leahy. Thank you.
    Senator Specter?
    Senator Specter. Let me thank the distinguished witnesses 
for coming in and for the work that they have done. It is 
obviously a labor of love for Attorney General Meese to 
continue his service long after he was Attorney General. I 
remember when he came in for his confirmation hearings, serving 
as domestic counselor during the first term at the time, the 
work we did together on the armed career criminal bill, the 
advice and consultation, and his work as Attorney General. And 
I think he has been more active in Government after he left 
Government than he was when he was in Government, so we thank 
you.
    And thank you, Congressman Hamilton. You are co--chairman 
of about every study group there is. I had the pleasure of 
being with Lee at Chautauqua, which I would recommend that you 
attend if you are not invited to be a
    speaker. They put you on a big stage, soft chairs--
    Chairman Leahy. Do you sleep?
    Senator Specter. Not when Lee Hamilton is speaking, I do 
not.
    [Laughter.]
    Senator Specter. And they have several thousand people in a 
giant amphitheater there. It is really a great experience, 
especially to be with Lee Hamilton.
    But we appreciate what you are saying, and it is my hope 
that more attention will be paid to what you have said. And I 
respect what General Meese has said, that more of their 
recommendations have been accepted, but after they are 
accepted, they have to be implemented. There has to be a little 
greater recognition that there is some wisdom in this town 
outside of the executive branch. If Congress does not have any 
standing in the eyes of some of the executive branch, certainly 
the Iraq Study Group does.
    So I thank you for what you have done, and Chairman Leahy 
and I are going to continue the oversight here and do what we 
can to correct these problems. So thank you.
    Mr. Hamilton. Thank you.
    Chairman Leahy. I will continue. You know, we have had 
several hearings already on Iraq and the areas that come under 
the jurisdiction of this Committee, and we rely on people like 
the two of you to have the willingness to take the time to come 
and appear. Obviously, we can request people from the 
administration, have a different way of approaching that, but 
it is only required because of you. And I appreciate what you 
have written on this.
    You know, it is interesting. Congressman Hamilton, your 
wife and my wife had a conversation around the time you were 
retiring about the joys of retirement. And I remember my wife 
said to me on the way home, she said, ``I do not really believe 
Lee is going to retire.'' I said, ``Of course, he won't. He 
will be working just as hard.'' And I agree with Senator 
Specter, you have been virtually every time--you have been 
like, you know, the fire horse, we ring the bell and you are 
there. And I mean that in the best possible way.
    And, Attorney General Meese, you and I have not always 
agreed on everything. In fact, during my last election, I 
recall you came to Vermont to campaign for my opponent, which 
just suddenly occurred to me. But he lost.
    [Laughter.]
    Chairman Leahy. But I think he did probably better because 
you were there. He got up to 23 percent of the vote. But there 
are areas we agree on. We have spoken, for example, about the 
over-Federalization of crime, and I think that is something--
and please keep speaking on that because---and I think I, like 
everybody else, has probably been guilty of voting for some of 
these things. I worry about the over-Federalization of crime 
because I think in many instances it detracts our Federal law 
enforcement from the very important things that only they can 
do. If they are involved in the things that local police and 
sheriffs and State police could handle, they are not doing the 
things we want them to do.
    We have a shared belief--and you have spoken eloquently on 
this--about how State and local law enforcement in this country 
do a good job and they deserve our respect and they deserve 
things that we can do to help them without imposing a Federal 
overlay.
    So I cannot tell you how much I appreciate you taking the 
time. I know Senator Specter and I join in that, and we will 
continue to work together.
    We stand in recess.
    [Whereupon, at 11:30 a.m., the Committee was adjourned.]
    [Additional material is being retained in the Committee 
files, see Contents.]
[GRAPHIC] [TIFF OMITTED] 33819.001

[GRAPHIC] [TIFF OMITTED] 33819.002

[GRAPHIC] [TIFF OMITTED] 33819.003

[GRAPHIC] [TIFF OMITTED] 33819.004

[GRAPHIC] [TIFF OMITTED] 33819.005

[GRAPHIC] [TIFF OMITTED] 33819.006

[GRAPHIC] [TIFF OMITTED] 33819.007

[GRAPHIC] [TIFF OMITTED] 33819.008

[GRAPHIC] [TIFF OMITTED] 33819.009

[GRAPHIC] [TIFF OMITTED] 33819.010

[GRAPHIC] [TIFF OMITTED] 33819.011

[GRAPHIC] [TIFF OMITTED] 33819.012

[GRAPHIC] [TIFF OMITTED] 33819.013

[GRAPHIC] [TIFF OMITTED] 33819.014

[GRAPHIC] [TIFF OMITTED] 33819.015

[GRAPHIC] [TIFF OMITTED] 33819.016

[GRAPHIC] [TIFF OMITTED] 33819.017

[GRAPHIC] [TIFF OMITTED] 33819.018

[GRAPHIC] [TIFF OMITTED] 33819.019

[GRAPHIC] [TIFF OMITTED] 33819.020

[GRAPHIC] [TIFF OMITTED] 33819.021

[GRAPHIC] [TIFF OMITTED] 33819.022

[GRAPHIC] [TIFF OMITTED] 33819.023

[GRAPHIC] [TIFF OMITTED] 33819.024

[GRAPHIC] [TIFF OMITTED] 33819.025

[GRAPHIC] [TIFF OMITTED] 33819.026

[GRAPHIC] [TIFF OMITTED] 33819.027

[GRAPHIC] [TIFF OMITTED] 33819.028

[GRAPHIC] [TIFF OMITTED] 33819.029

[GRAPHIC] [TIFF OMITTED] 33819.030

[GRAPHIC] [TIFF OMITTED] 33819.031

[GRAPHIC] [TIFF OMITTED] 33819.032

[GRAPHIC] [TIFF OMITTED] 33819.033

[GRAPHIC] [TIFF OMITTED] 33819.034

[GRAPHIC] [TIFF OMITTED] 33819.035

[GRAPHIC] [TIFF OMITTED] 33819.036

[GRAPHIC] [TIFF OMITTED] 33819.037

[GRAPHIC] [TIFF OMITTED] 33819.038

[GRAPHIC] [TIFF OMITTED] 33819.039

[GRAPHIC] [TIFF OMITTED] 33819.040

[GRAPHIC] [TIFF OMITTED] 33819.041

[GRAPHIC] [TIFF OMITTED] 33819.042

[GRAPHIC] [TIFF OMITTED] 33819.043

[GRAPHIC] [TIFF OMITTED] 33819.044

[GRAPHIC] [TIFF OMITTED] 33819.045

[GRAPHIC] [TIFF OMITTED] 33819.046

[GRAPHIC] [TIFF OMITTED] 33819.047

[GRAPHIC] [TIFF OMITTED] 33819.051

                                 <all>

</pre></body></html>
